                                 Closeout for M94120041
    This case was brought to the attention of OIG on 18 November 1994 by university
    officials.' The officials informed us that an undergraduate student2was alleged to
    have committed "fraud and theft" in connection with her NSF-supported work.

    OIG's investigation report and NSF's Deputy Director's 8 February 1999 letter
    describing his decision constitute the closeout for this case.

    Cc: Integrity, IG




-.
J     -
      .-   .       ----      $



                                   . Page 1 of 1                           M94-4 1
                     ..,,...;                   . . .....,....,.
                                                                                                                                                                                ..
                                                                                                                                                                                                                                                                             :
            ,
                          .::
                          -,,              . .                ...A:
                                                                         :',.,, ;i';ir:.;  ..
                                                                                     ,.. . >;. ..,";>.' ,.'    :   .'       ,.   .   < :                                   ..   .           :.u'.;, .>..:,y
                                                                                                                                                                                                          ."   '.
                                                                                                                                                                                                           .;. . .. ,.,:..7
                                                                                                                                                                                                                          . ,$!,; '<,'.:                                                                   '
                                                                                                                        -
                     .. . ,       .               .".....,.... , :.. .
                                                                                                                                                                       ,             ,'.;
                                                                                                                                                                                                                                       ;?;.'        ,;.                                                      :.. ..
                                                                                                                                                                NATIONAL SCIENCE FOUNDATION' , 1,
                                                                                                                                                                                                                       '
                                                                                                                                                                                                                                                                   ; :-.>.
                                                                                                       .; \ ;::,,:;?:?:,j..:
                                                                                                                                                                                                                                                          ;.

                                                                                                                    : . ~ . . , *.
                                                                                                                                                                                                                                                                                                                                           . .,
                                                                                     :;..,:;;;                                                                                                                                                                                                                                                                               ,. . , .
                                                                                                                                                                                                                                                                                                     .":                                          . ,,,, .
                                                                                                                                                                                                                                                                                                 r
                                                                                                                                                                                                                                                                                                              ,,        , , ,                                : ,.
                                                                                                                                                                                                                                               <?
     ,        :
                                                                                                                                                                                                                                                                                                     .'. .            :.",) ., .:?.,
,>   !; .<,,;..,, ,;,; . ,.
                  ,   ,     ,:,            ._/    . ,   1
                                                        ...     .;,; :,*;.,;;..;                 ;.,;?;                                          . ..,      .                                                                                                                                              . .                                                  .       ,.
                                                                                                                                                                                                                                                                                                                                                                                : .
                                                                                                                                           .
                                       /
                                                                                      ,        .     .                                                                                                                                                                           ,   , .,,                                                                                            .j',s

                                  .*                                                     .                                                     , . < * '.

                                                                                                                                                                    4201 WILSON BOULEVAF~D .
                                            .                  . . .            .             .     , .., ,.                                                                                      . :. . , , ,                                                           , .                 :       .     '           '   .    ,.     .      . ,. , ,.             .                         ,
                                                                                                                            .
                                                                                                                                                                                             . ..     ..
                                                                                                                                                                   ARLINGTON, VIRGINIA 22230
                                                                                                                                                                                                                                                               '



                                                                                                           ,   .




                                                                                                                                                                                                                            February 8, 1999


                                                                    OFFICE OF THE
                                                                  D E P m OIRECTOR



                                                        CERTIFIED
                                                           -   -
                                                                  MAIL-RETURN
                                                                     - -
                                                                          -   RECEIET REOUESTED
                                                                                    --                     -       --




                                                                                                                                                                 ,--
                                                                                                                                                                            --       2
                                                                                                                                                                                             Misconduct in Science Determination
                                                        Dear,.                        :. .             '                +        - z:oa             :
                                                                                                                                                                I


                                                                                                                                                                -
                                                     By letter dated October 14, 1998, I informed you that the
                                                     National Science Foundation (NSF) has determined that your
                                                     client,                    , committed misconduct in science when
                                                     she fabricated data under an NSF research award. Because of the
                                                     severity of the misconduct, I proposed debarring
                                                     for one year.
                                                    In your November 20, 1998 response, you indicate that your client
                                                    is remorseful for her actions and that she has learned the
                                                    importance of integrity in research. However, I am troubled by
                                                    your client's failure to accept full responsibility for her
                                                    misconduct. Your client attempts to shift blame for her
                                                    misconduct to             , alleging that she was a "departmental
                                                    terroru, rather than accepting full responsibility for her
                                                    actions.
                                                  Furthermore, you attempt to characterize your client's actions as
                                                  an isolated act, undertaken following a single incident in which
                                                  she lost original data, and indicate that she reported the false
                                                  data in order to give her time to repeat her earlier work. You
                                                  also hypothesize that if your client had known of some samples
                                                  that another researcher had, she might have been able to repeat
                                                  her work and report the results accurately. These explanations
                                                  for her behavior are not supported by the facts in the
                                                  administrative record. The record establishes that your client
                                                  falsified many time cards and research data in two distinct
                                                  laboratories at the Uni.er_sit-yover an 11 month period. In
                                                  addition, according t o .              /your client showed no
                                                  remorse at the time that the fabrication was discovered, prior    to
                                                                                                                 Y - b
                                                  the- -commencement of any criminal proceedings. According to*?
                                                           - * your client actually stated that she "was owed the
                                                                                    --
                                           L


                                           '      moneyN &en though she did not perform the work. This indicates
                                                  a deliberate pattern of misconduct.
In conclusion, I find that your client committed misconduct in
science and hereby issue this letter of reprimand. However, I
have determined that debarment is not necessary. The purpose of
debarment is to protect the Federal Government from doing
business with individuals who lack present responsibility.
Although your client's misconduct was severe, you indicate that
she is no longer pursuing a career in science. Based upon your
representations, it is highly unlikely that your client will work
in a federally-funded scientific laboratory or have any control
over funds from a federal grant or contract during the next year.
I also note that your client has already suffered serious
consequences for her misconduct, including expulsion from the
                  , restitution, and a criminal conviction. For
all these reasons, I have determined that it is not necessary to
debar your client in order to protect the Federal Government's
interest.
I hope that your client will gain appreciation for the import
of protecting the integrity of the research process and will
adhere to the highest standards of integrity in her future
career.
Under our regulations, you have 30 days after receipt of this
letter to appeal in writing, to the Director of the Foundation.
45 CFR §689.9(a). Any appeal should be addressed to the Director
of the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If you have any questions about the
foregoing, please call Lawrence Rudolph, General Counsel, at
(703) 306-1060.
                                  Sincerely,


                                  ~ o s e ~Bordogna
                                            h
                                  Acting Deputy Director
                        Confidential




             Office of Inspector General

                   Investigation Report

                 OIG Case M94120041


                    15 September 1997


This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. -It may not be reproduced. It may
be disclosed outside of NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. $5 552,552a.
                                      INVESTIGATION REPORT

                                                            Summary

The Office of Inspector General (OIG) has determined that                                   (the
                                                                                        --
                                                                                                                                       --=a

subject), formerly an undergraduate student and student lab aide at the)--                                                                    >

(the University), willhlly falsified time cards and fabricated research data in association with
two NSF awards and other nonfederally supported research and that these actions were part
of a pattern of such behavior. Our conclusion is based on our analysis of evidence collected
by the University and as part of proceedings in a state Judicial District Court. OIG
recommends that NSF find that the subject committed misconduct in science and take two
actions as a frnal disposition of this case. The subject should receive a letter of reprimand
informing her that (1) NSF has concluded that she committed misconduct in science and that
(2) she is debarred for a period of 1 year.


                                                        The ~vidence'
                                                                      --,
In an 18 November 1994 letter, the -----
                                                    -   -    --
                                                       *(the University) informed NSF that an
undergraduate student,                          (the subject), ----
                                                               was alleged to have committed               --7


"fraud and theft" in connection with her work on NSF award,                    (Ex. 1, page 1).
The University subsequently reported that the subject confessed to falsifying time cards and
to fabricating data in confiection with her work as a student- lab -aide- in two research
laboratories. One of these laboratories was headed by
                                                               -'.             >-
                                                                               _7

                                                                               ;(the PI). The
other was headed by ,r -                  :. The subject's                          -
                                                                                        A


                                      -
                              - --
                                                          --
                                                              work in the PI'S laboratory was
supported by two NSF grants,*T'- "            and**-    -
                                                                     The subject's work in the
other laboratory was not supported by federal grants. Exhs. 2-4.

In response to our request for information: the University provided records showing that, on
the basis of 3 1 falsified time cards submitted by the subject from 17 September 1993 through


'     The information we gathered in this case was the result of an extended exchange with the University. We have
      attached to this report the directly relevant material. We would be pleased to provide additional information
  .=.
      upon request.
             .=- --                              .- -.. . -         .      -~--
                                                                          - -- .     . .                ..    .-
                                                                                                                .. ~   -   ~   ~   -



                                                                           .
          "                                   -                        -                         ~-   --



                            95
                                          ~                                                 ~~




                          entitle$-                             .. - a,
                                                                                                                      'This award
      named l . -
              7     -


                                    y r t h e P1..,+     .<: %
                                                             -.
                                                              ~




                        ,                          T t nmvided                                             --
97                                                                                                  F
                                                                                              --s-+---
                                                                                                                   ;." This award
                                                                                                           ~




                    , j s ~entitled                                   - .


4.
      named   ' '
                            -I_



                                  1   as the PI. It p r o v i d e d         Presearch support and is i f o w s d .
      In our 22 August 1995 letter we informed the University that, because of the unusual circumstances in this case,
      we were initiating an investigation. Exh. 4. We considered this misconduct-in-science case unusual for three
      reasons. First, the subject's actions had already resulted in a criminal conviction. Second, our office was
      presented, for the f m t t h e , with evidence that indicated that it might be appropriate to recommend debarment
      in connection with an undergraduate student's activities. Third, the case had been handled procedurally under
      laws and University regulations other than misconduct-in-science policies.
                                                        Page 1
   15 July 1994, she received $5781.29.' On the basis of 9 of --these
                                                                   --- time
                                                                         -  cards she received a
                                                                           - -
   total of $1,844.66 from two NSF awards ($628.49 from r                      !imd $1219.17 from
-- -
   -       -
            -- .
                 \). See Exh. 2, pages 7-8.
                   A   -




'   The PI described the circumstances of this case in letters sent to the department chairman, the
    University police detective, the Student Behavior Committee, and OIG (Exhs. 5-8, and Exh.
    14, pages 4-6). From these documents we learned that the subject was employed as a student
    lab aide by the PI fiom May 1992 until July 1994. Among other duties, the subject
    conducted chemical analyses on leaf samples. In July 1994, the PI became suspicious that
    the subject was falsely reporting work hours. The PI questioned the subject and reported the
    matter to the University police (Exhs. 7 and 9). Under questioning by the police, the subject
    confessed that she had falsified her time cards and fabricated the research data she claimed to
    have collected (Exh. 9 and 10). These data were ostensibly for leaf samples collected in a
    year-long field experiment by the PI and her colleagues during their expedition to<$

    OIG learned that the subject had worked under supervision for over 1 year in the PI'S
    laboratory conducting routine chemical analyses on leaves designed "to estimate three
    measures of chemical defenses in the leaves" (Exh. 8, page 6). By September 1993, the PI
    had departed for a sabbatical and considered the student an experienced and trusted
    laboratory aide. The graduate student who had worked closely with the subject began
    preparing for her doctoral thesis defense and ceased supervising the subject. According to
    the PI, "[bleginning in 1992, [the subject] produced reliable and verifiable data on leaves
    fiom three year-long greenhouse experiments" (Exh. 6, page 1). In September 1993, the
    subject was working at night and on the weekends and allegedly attributed this to her class
    schedule and her work in the other laboratory. The subject was not required to submit formal

    Department
                        -
    written or oral progress reports.
                       i - - 4

                       /
                                     - - --
                                            While she was i n sabbatical, the PI "instructed the
                                                  staff to process unsigned time cards that were
                                   )

    submitted by [the PI'S] staff during [the PI'S] sabbatical as long as the hours reported looked
    consistent with the hours reported for prior pay periods." Exhs. 5-8, Exh. 8, page 8.

    In December 1993, the subject provided the PI with sheets summarizing the raw data she
    claimed to have collected. Seven months later, in July 1994, when the PI asked her for the
    raw data, the subject allegedly told her, that, while she could not find them, she might have
    left them in one of a number of buildings on campus. The two walked to each facility, but
    did not find them. (Exhs. 5 and 7). The subject also told the PI that the data were "not
    fraudulent" but that some of the leaf samples she had analyzed had been "lost." In searching
    through her laboratory, the PI found the "lost" samples. The condition of the leaf samples
    was inconsistent with them having been analyzed. (Exh. 5 and 7, pages 2). The PI reported

      This sum is based on the subject's falsified time cards. However, prior to our request for these cards, the
      University provided us with several estimates of the amount of money the subject received and under which
      NSF grants she received the money. We believe the estimate provided in Exh. 2 is accurate because it is derived
      from the claims in the subject's falsified time cards.
      Exhs. 5, 6 and 7 contain several letters by the PI describing her research and her conversations with the subject
      about these matters. See also Exh. 8, which contains the PI'S response to our letter.
                                                   Page 2
    her concerns to the University police (Exh. 7 and 9) and the Student Behavior Committee
    (Exh. 14, page 4-6). The subject admitted to the PI that she had falsified her time cards and
    subsequently admitted to the University police that she had falsified her time sheets and
    fabricated the data (Exh. 9, pages 1- 3, and 9, Exh. 10, Exh. 11, page 3.)
                                                                                                                             I
                                               The Court's Decision

The subject was arrested on 23 September 1994 and released that same day. She was
charged with a second degree felony and pled guilty to the misdemeanor offense of theft by
deception (Exh.9 page 7, Exhs. 11 and 12). She was convicted in the Third Judicial District
Court of                     on 7 April 1995. In lieu of a 12-month jail sentence, she was
placed on probation for that time and ordered to pay of fine of $1200 and make restitution of
$7807.' She was also instructed to write a letter of apology to the victim8(Exh. 12).

Her probation officer told us that the letter of apology had been sent. However, during our
conversations with, and letters to, the subject we requested copies of the letter of apology on
several occasions. Although the subject promised, on each occasion, to forward a copy of the                                     I
letter to us, we never received it, or any other written communications, from the subject?
Exh. 13.                                                                                                                         1

                                            The Universitv's Decision

The PI reported her concerns to the Student Behavior Committee in July 1994; however, the
University suspended its proceedings under its Student Code until the criminal case was
completed. On 11 April 1995, the University's Student Behavior Committee heard the PI'S
complaint. The Committee unanimously decided to dismiss the subject from the University.
Exhs. 1 and 2. In a 23 June 1995 letter to the subject, the Committee informed her of its
decision and said that if she chose to return to the University she would be required to make a
full disclosure of the reasons for her dismissal to the Dean of Student Affairs and present
reasons why she should be readmitted. Her Master Academic Record indicates that she is
ineligible to register. Exhs. 2 and 14.


7
     The Deputy County,Attorney stated that the University records "show that between September 14, 1993 and
     August 2, 1994, the defendant was paid $7807." (Exh. 9, page 9).
8
     The PI said in August 1994 that the subject had "never expressed any sympathy for the victims of her
     dishonesty. Her only regret appears to be that she was caught." Exh. 14, page 6. The subject's only statement
     of remorse is found in the 29 November 1994 Presentence Investigation Report (Exh. 11, page 3). In that
     statement she admits to time card falsification and data fabrication and states that she "now [feels] a great deal of
     remorse for the crime I committed." Nowhere does she apologize to the victims of her crimes which include the
     PI, the other laboratory head, the graduate student, the laboratory personnel that had to reconstruct the data, and
     the greater scientific community.
9
     In July 1997 we again contacted the subject to ask for a copy of the letter of apology. She said that she had not
     forwarded the letter to us, as promised, because she had not retained a copy of the letter she had sent to the
     victim. She said she had planned to get a copy of it from the court to forward to us, but, had not done so.
                                                    Page 3
                                         OIG's Conclusions
                                                                                                      I
     NSF defines misconduct in science, in relevant part, as "(1) Fabrication, falsification,
     plagiarism, or other serious deviation from accepted practices in proposing, carrying out, or
     reporting results from activities funded by NSF . . . " (45 C.F.R. fj 689.1(a)(l)). For NSF to   ,I
                                                                                                      1
     make a finding of misconduct in science, a preponderance of the evidence must show 1) that
                                                                                                      I
     the subject committed a bad act associated with NSF activities and 2) that the bad act was
     committed with a culpable state of mind (such as willful, knowing, or gross negligence)
     (45 C.F.R. 3 689.2(b)(2) and (d)).

    The Act

    We believe that a preponderance of the evidence supports the conclusion that the subject
    fabricated data to support the falsified time cards she submitted in connection with the PI'S
    NSF-supported research. When questioned by the University police, the subject confessed.
'   W s . 9 and 10).

    The State of Mind

    We consider the subject's actions to be, minimally, willful. In circumstances where she had
    developed the trust of her supervisors and in which she had no oversight she falsified her
    time cards and allegedly claimed to be working at night or on the weekends, when she was
    not working at all. In December 1993, she provided the PI with data summary sheets. In
    July 1994, when the PI questioned her about the authenticity of the data, she did not admit to
    misconduct. She claimed to have lost the data and that some of the leaf samples were "lost."
    She admitted that she had falsified her time cards but maintained that her work was genuine.
    The PI subsequently found the "lost" samples; their condition indicated that they had not
    been processed for analysis. Only after she was unable to produce the raw data and was
    subsequently questioned by the police did she admit to both falsifying her time cards and
    fabricating data.

    The subject's behavior can be considered no less than intentional and willful: her actions
    were designed to achieve the purpose she desired. Specifically, she submitted time cards she
    knew contained false information in order to receive payment for work she had not
    performed. The time cards (an example is provided in Exh. 15) provides a space for the
    employee to fill in the number of "hours worked" each day and for the employee's and
    supervisor's signatures. For each of the 3 1 time cards submitted by the subject over a period
    of 11 months, she made different false claims about the time she had worked and
    successfully received payment on the basis of each of those false claims. She submitted
    fabricated data to support her false claims of work. She said she made up data to substitute
    for data she had "lost." When questioned, "[ilnstead of admitting the truth, my choice was to
    perpetuate the lie [I] had already begun." (Exh. 11, page 3). Her behavior, on being
    questioned by her supervisor about these data, demonstrates her awareness that her actions
    were wrong. Rather than admit to her "lies," she attempted to disguise her actions. She later
                                           Page 4
confessed-to falsifying her time sheets, and still later, confessed to fabricating her data. We    I
                                                                                                   I1
concluded that a preponderance of the evidence supports the conclusion that the subject's          I
                       /
behavior can be c o m e r e d no less than willful.

Our Conclusion

Work in research laboratories ultimately relies on trust and honesty. Students and support
staff new to a laboratory are subject to a training period in which they learn techniques and
their skill and the data they gather are closely scrutinized. At some point, they are either
relegated to laboratory housekeeping chores or becomes trusted members of the research
team. When their supervisors have developed sufficient trust in the quality of their work and       I

                                                                                                    I
they have proven their reliability and skill, undergraduate students, such as the subject, can
be given the privilege of working on their own data-generating projects or trusted to perform
routine analyses that are critical to other researcher's projects. Their work product is rarely
subject to independent repetition for verification. This is a time-honored system central to
the academic research enterprise. Abuses of this system are serious. They can introduce
undetected errors into the research record, delay or disrupt research programs, and cause
damage, sometimes irreparable, to the trust scientific colleagues must be able to place in each
                                                                                                    I
other. The subject's action, in falsifying time cards and fabricating data, relied on and abused
the trust inherent in this system. We concluded that a preponderance of the evidence
supports the conclusion that the subject seriously deviated fiom accepted practices in the
scientific community and, hence, committed misconduct in science under NSF's definition.


                             OIG's Recommended Disposition

When considering what actions to recommend, NSF's Misconduct in Science and
Engineering regulation specifies that NSF officials should consider how serious the
misconduct was, the intent with which it was committed, whether it was part of a pattern, and
its connection to any other NSF activities (45 C.F.R. $689.2(b)).

Seriousness

Among the materials submitted by the PI were two descriptions of the serious consequences
of the subject's actions on the research effort in her laboratory. In the PI'S letter to the
University police detective (Exh. 7, page 2-3), she said

      Based on what [the subject] told me, I concluded that we ha[d] lost all the
      chemical data for our first and most important year-long field study. Although
      we have recently begun to analyze leaf material from a second year-long
      experiment (on fewer species), these data may not be useful because the leaves
      hav[e] sat around the lab for an entire year. Despite the serious consequences
      of [the subject's] dishonesty for myself, a collaborator (a graduate student at

                                        Page 5
    5
        t=   -        --.   \

                        -and the lab as a whole, she never once expressed remorse or
                 sympathy for our losses.

         Ultimately, the PI'S research program sustained less damage than she anticipated in her letter
J
         only because the laboratory was lucky enough to be able to generate, after an additional year
         and a half, some substitutable data from a second, smaller set of leaf samples from the first
         year-long study. These leaves were collected 3 months after those the subject was to have
         analyzed and therefore are not identical in composition to those in the first set. (Exh. 8, page
         5).

        The PI told the Student Behavior Committee that

                 [the subject] had worked in my lab for 1 '/z years prior to her criminal
                 behavior, and certainly knew the serious consequences of research fraud.
                 Despite this knowledge, she exhibited no regard for the consequences for the
                 research lab and individuals in that lab. In the end she sabotaged the results of
                 a year-long (>$50,000) experiment in Peruvian rain forests and part of a
                 student's dissertation at Harvard. . . . [The subject] has never expressed any
                 sympathy for the victims of her dishonesty. Her only regret appears to be that
                 she was caught. In view of these two observations, she should certainly never
                 work in another scientific laboratory. Also, given the seriousness of [the
                 subject's] crimes, I would ask your Committee to consider expelling her
                 permanently from the University. [Exh. 14, page 6.1

         We concur with the PI. The subject's actions are serious breaches of the ethical norms within
        the scientific community. First, in order to receive payment for her falsified time cards, the
        subject relied on and then exploited the trust implicit in the freedom traditionally provided to
        junior laboratory personnel to conduct their laboratory work at times that do not conflictwith
        their classes or study routines. Second, progress in science relies on the accurate and
        objective recording and reporting of research results. Without indication to the contrary,
        scientists trust that their colleagues and laboratory personnel are reporting their actual results.
        The subject abused this trust when she fabricated data. Third, when confronted, she
        unsuccessfilly attempted to disguise her actions by claiming the raw data and selected
        samples were lost. The PI subsequently found these lost samples and only when confronted
        by the University police, did the subject confess that she had fabricated data.

        Evidence of a Pattern

        The subject's falsification of time cards and fabrication of data are part of a pattern of
        misconduct. She falsified time cards under two sequential NSF awards that had a related
        research focus. This was not an action isolated to one laboratory. In connection with her
        unrelated research work in another laboratory, she also falsified time cards and fabricated
        data. In all, she falsified 31 time cards over an 11-month period and fabricated data to

                                                 Page 6
 support those time cards. Such behavior can only be considered a pattern of misconduct, not
 an isolated instance.

 Recommend NSF Action

 We believe that the court's and the University's actions do not protect the federal
 govenunent's interests. Individuals with the subject's laboratory skills. are in constant
 demand by federally supported research programs across the country. The subject has
 demonstrated that she is capable of working in a sophisticated research laboratory, but that
 she lacks the present responsibility and ,integrity necessary to do so. We believe that NSF
 should take action to protect the government's interests, and has several grounds to do so;

Debarment is the most effective means of protecting the government's interests, and, given
the seriousness of this case, the subject should be debarred under several NSF regulations.
The subject should be debarred pursuant to a finding of misconduct in science under NSF's
misconduct in science and engineering regulation (45 C.F.R. $ 689.2(a)(3)(ii)). The subject
should also be debarred due to the lack of present responsibility inherent in her falsification
of time cards and fabrication of research data (45 C.F.R § 620.305(d)). Finally, the subject
should be debarred based on her conviction for theft by deception, under NSF's regulation
allowing debarment for conviction for "[c]ornrnission of embezzlement, theft, forgery,
bribery, falsification or destruction of records, making false statements, receiving stolen
property, making false claims, or obstruction of justice . . . ." (45 C.F.R. § 620.305(a)(3)).

It is of paramount importance that NSF address the subject's ethical failures in her conduct of
scientific research. The subject's fabrication of data and her falsification of time cards were
inextricably linked together and to the NSF-supported research being conducted in the PI'S
laboratory. They show serious failures to internalize scientific research norms and to act
with integrity when conducting scientific research; they warrant a finding of misconduct in
science, followed by debarment. In addition, NSF has grounds for debarment based on her
lack of present responsibility and criminal conviction.

We therefore recommend that NSF:

1. Find that the subject committed misconduct in science when she seriously deviated from
   accepted practices by fabricating research data to justify the time cards she falsified.

2. Send the'.subjecta 'letter of reprimand regarding her misconduct in science.''

3. Debar the subject for a period of 1 year.' '



lo
     This is a Group I action (see 45 C.F.R. 9 689.2(a)(l)(i)).
"
     This is a Group 111 action (see 45 C.F.R. 5 689.2(a)(3)(ii)).
                                                     Page 7
